No.
re SSeS eS es
IN THE

SUPREME COURT OF THE UNITED STATES

CEDRIC JEFFRIES,

Petitioner,
Vv.

THE STATE OF OHIO

Respondent.

APPLICATION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Petitioner Cedric Jeffries respectfully requests leave to file his Petition for Writ of
Certiorari to the Supreme Court of Ohio without prepayment of costs or fees and to proceed
informa pauperis pursuant to Rule 39. Petitioner’s direct appeal to the Supreme Court of Ohio
proceeded in forma pauperis. The entry of Ohio’s Cuyahoga County Court of Common Pleas
finding the defendant indigent and appointing counsel for direct appeal is attached. Mr. Jeffries
has remained incarcerated throughout the appellate proceedings in this case.

Respectfully submitted,

JEFFREY M. GAMSO
Assistant Cuyahoga County Public Defender
310 Lakeside Avenue, Suite 200

Cleveland, Ohio 44113

(216) 443-7583

jeffi.gamso@gmail.com

Counsel for Petitioner Cedric Jeffries
Supreme Court of Ohio Clerk of Court - i inn” 2018-0338

IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO

THE STATE OF OHIO Case No: CR-16-606245-A
Plaintiff
Judge: JANET R BURNSIDE
CEDRIC N JEFFRIES INDICT: 2907.02 RAPE
Defendant “2905.01. KIDNAPPING /SMS
2907.02 RAPE
ADDITIONAL COUNTS...
JOURNAL ENTRY

FOR SENTENCING PURPOSES: COUNT ONE MERGES INTO COUNT TWO; COUNT FOUR MERGES INTO COUNT
THREE. COURT PROCEEDS TO SENTENCING ON COUNTS TWO AND THREE.

DEFENDANT IN COURT. COUNSEL MARY C TYLEE AND LISA RANKIN PRESENT.

COURT REPORTER SUZANNE VADNAL PRESENT.

ON A FORMER DAY OF COURT THE JURY RETURNED A VERDICT OF GUILTY OF RAPE 2907.02 A(1)(B) Fl AS
CHARGED IN COUNT(S) 1 OF THE INDICTMENT.

ON A FORMER DAY OF COURT THE JURY RETURNED A VERDICT OF GUILTY OF KIDNAPPING 2905.01 A(4) Fl WITH
SEXUAL MOTIVATION SPECIFICATION(S) 2941.147 AS CHARGED IN COUNT(S) 2, 4 OF THE INDICTMENT.

ON A FORMER DAY OF COURT THE JURY RETURNED A VERDICT OF GUILTY OF RAPE 2907.02 A(2) Fl AS CHARGED
IN COUNT(S) 3 OF THE INDICTMENT.

PROSECUTOR JEFF SCHNATTER IS PRESENT.

THE COURT CONSIDERED ALL REQUIRED FACTORS OF THE LAW.

THE COURT FINDS THAT PRISON IS CONSISTENT WITH THE PURPOSE OF R. C. 2929.11.

THE COURT IMPOSES A PRISON SENTENCE AT THE LORAIN CORRECTIONAL INSTITUTION OF 15 YEARS TO LIFE.
AS TO COUNT TWO, DEFENDANT IS SENTENCED TO A MANDATORY SENTENCE OF 15 YEARS TO LIFE,
CONCURRENT WITH COUNT THREE, A MANDATORY SENTENCE OF 10 YEARS.

*** DEFENDANT IS DETERMINED TO BE A TIER II] SEX OFFENDER/CHILD OFFENDER REGISTRANT. *** COURT
EXPLAINED ALL DEFENDANT'S REGISTRATION DUTIES AS A TIER III SEX OFFENDER. DEFENDANT, WHEN NOT
INCARCERATED UNDER ANY OF THE SENTENCES MUST PERSONALLY REGISTER HIS RESIDENCE, EMPLOYMENT
OR SCHOOL (OR INSTITUTION OF HIGHER EDUCATION) ADDRESSES WITH THE COUNTY SHERIFF OF THE COUNTY
CONTAINING THESE ADDRESSES AND VERIFY SAME FOR LIFETIME WITH IN PERSON VERIFICATION EVERY 90
DAYS BY PERSONALLY APPEARING AT THE SHERIFF'S OFFICE. HE MUST GIVE 20 DAYS PRIOR NOTICE OF ANY
RESIDENCE OR SCHOOL ADDRESS CHANGE TO THE COUNTY SHERIFF WITH WHOM HE MOST RECENTLY
REGISTERED AND TO THE COUNTY SHERIFF OF THE COUNTY IN WHICH THE NEW ADDRESS IS LOCATED. HE
MUST REGISTER A NEW EMPLOYMENT ADDRESS WITHIN 3 DAYS OF OBTAINING SUCH NEW ADDRESS WITH
SUCH SHERIFF. THESE PROVISIONS APPLY WITH EQUAL FORCE SHOULD DEFENDANT RESIDE, ATTEND SCHOOL
OR WORK IN ANY OTHER STATE OF THE UNITED STATES.

DEFENDANT IS ORDERED TO SUBMIT TO A DNA SPECIMEN COLLECTION PROCEDURE UNDER R.C. 2901.07.

DEFENDANT TO RECEIVE JAIL TIME CREDIT FOR 240 DAY(S), TO DATE.

DEFENDANT IS CREDITED WITH TWO DAYS IN MUNICIPAL JAIL AND DATES 5/13/2016 TO 1/5/2017 IN CUYAHOGA
COUNTY JAIL.

DEFENDANT DECLARED INDIGENT.

DEFENDANT ADVISED OF APPEAL RIGHTS.

DEFENDANT INDIGENT, COURT APPOINTS ERIC M LEVY AS APPELLATE COUNSEL.

TRANSCRIPT AT STATE'S EXPENSE.

SENT
01/05/2017
RECEIVED FOR FILING
01/05/2017 16:44:08
NAILAH K. BYRD, CLERK

Page | of 2
‘M0

THE COURT HEREBY ENTERS JUDGMENT AGAINST THE DEFENDANT IN AN AMOUNT EQUAL TO THE COSTS OF

THIS PROSECUTION.
DEFENDANT REMANDED.
SHERIFF ORDERED TO TRANSPORT DEFENDANT CEDRIC N JEFFRIES, DOB: 02/11/ 1975, GENDER: MALE, RACE:

BLACK.

01/05/2017
CPSXK 01/05/2017 15:26:19

Judge Signature 01/05/2017

SENT
01/05/2017
RECEIVED FOR FILING
01/05/2017 16:44:05

NAILAH K. BYRD, CLERK
Page 2 of 2
